No.

IN THE
SUPREME COURT OF THE UNITED STATES

BO DANIEL SHAFER

— PETITIONER

(Your Name)
VS.
THE STATE OF TEXAS

— RESPONDENT(S)

PROOF OF SERVICE
I,

BO DANIEL SHAFER
, do swear or declare that on this date,
JUNE 19
, 202J^, as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
ATTORNEY GENERAL OF TEXAS
P.0. BOX 12548. CAPITOL STATION
AUSTIN. TEXAS 78711

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

(Signature)

I'l'

7)

MAIL BOX RULE

I declare under the penalty of perjury that the foregoing is
true and correct and that this Writ of Gertiorari was placed in the
prison mailing system on June 19, 2021.

Bo Daniel Shafer'-'
TDCJ #1988007
Lewis unit
P.0. BOX 9000
Woodvill, Tx 75990

Current address:

Lewis unit
P.0. Box 9000
Woodville, Tx 75990

